Audit Report




OIG-12-031
Management Letter for the Audit of the Office of D.C. Pensions’
Fiscal Years 2011 and 2010 Financial Statements
December 16, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 16, 2011


            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the
                                  Office of D.C. Pensions’ Fiscal Years 2011 and 2010
                                  Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of D.C. Pensions’ (ODCP) Fiscal Years 2011 and 2010 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            financial statements of ODCP as of September 30, 2011 and 2010, and for the
            years then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operation that were identified during the audit but were
            not required to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits,
            at (202) 927-5407.

            Attachment
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




December 5, 2011


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions


We have audited the consolidated financial statements of the U.S. Department of the Treasury’s
Office of D.C. Pensions (the ODCP) for the year ended September 30, 2011, and have issued
our report thereon dated December 5, 2011. In planning and performing our audit of the
consolidated financial statements of the ODCP, in accordance with auditing standards generally
accepted in the United States of America, the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended, we considered the ODCP’s internal control over financial
reporting (internal control) as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements but not for the purpose of
expressing an opinion on the effectiveness of the ODCP’s internal control. Accordingly, we do
not express an opinion on the effectiveness of the ODCP’s internal control.
During our audit we noted certain matters involving internal control and other operational
matters that are presented for your consideration. These findings and recommendations, all of
which have been discussed with the appropriate members of management, are intended to
improve internal control or result in other operating efficiencies and are summarized in
Appendix A to this report.
In addition, we identified certain deficiencies in internal control over financial reporting that we
consider collectively to be a significant deficiency, and communicated them in writing as
Exhibit I to the Independent Auditors’ Report on Internal Control Over Financial Reporting to
management and those charged with governance on December 5, 2011.
Our audit procedures are designed primarily to enable us to form an opinion on the consolidated
financial statements, and therefore may not bring to light all deficiencies in policies or
procedures that may exist. We aim, however, to use our knowledge of the ODCP’s organization
gained during our work to make comments and suggestions that we hope will be useful to you.
The ODCP’s responses to our findings and recommendations are included in Exhibit I. We did
not audit the ODCP’s responses and, accordingly, we express no opinion on them.
We would be pleased to discuss these comments and recommendations with you at any time.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
This communication is intended solely for the information and use of the ODCP’s management,
the U.S. Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress, and is not intended to be and should not be used
by anyone other than these specified parties.
Very truly yours,




                                              2
                                                                           Appendix A




                     FINDINGS AND RECOMMENDATIONS


Improve compliance with Treasury Directive Publication 85-01

During our review of the Office of DC Pensions’ (ODCP) System to Administer
Retirement (STAR) password parameters, we identified that the system was not in
compliance with the password history requirements set forth in Treasury Directive
Publication (TD P) 85-01, Treasury Information Technology Security Program,
amendment #2.2.5 adopted August 6, 2010. TD P 85-01 requires the retention of a
password history of 10 previous passwords effective May 6, 2011. We noted the STAR
application is configured to retain a password history of 6 previous passwords, which is
not in compliance with TD P 85-01.

ODCP performs a Security Testing and Assessment (STA) annually, which is also when
the identification and implementation of new federal system requirements is conducted.
The annual STA testing activity was performed in June 2010 before TD P 85-01 was
revised in August 2010 to require the retention of 10 previous password histories. The
current timing of the STA does not allow for timely implementation and compliance with
updated Treasury or new federal system regulations and requirements.

The password history retention was subsequently corrected by ODCP in June 2011.

Recommendations

We recommend ODCP: (1) Update the STAR Account Management Policy and
Procedures Manual to be in accordance with the TD P 85-01; and (2) Implement a
process to monitor compliance with updated Treasury Directive Publications and other
Federal requirements on a more frequent basis.

Management’s Response

1. As of June 8, 2011, STAR has been updated to retain password history of 10 previous
   passwords. In addition, the STAR Account Management Policy and Procedures
   Manual and the STAR Rules of Behavior have been updated to be in accordance with
   security control IA-5(1) as identified in TD P 85-01.

2. As part of preparing for the annual security test and evaluation, ODCP will
   periodically check the TreasNet Cyber Security Program webpage for updated
   requirements.




                                          A-1
                                                                    Appendix A, continued




Improve Annuitant Recordkeeping

During our testing of 85 new annuitant and beneficiary payments processed by the
District of Columbia Retirement Board (DCRB) for the Police & Firefighters and
Teachers retirement plans, DCRB was not able to locate and provide all annuitant files
on a timely basis.

One file was located about one month later and the other file was lost and required to be
recreated.

Memorandum of Understanding (MOU) Concerning Interim Benefit Administration of
Retirement Programs dated September 26, 2005, section 4.5 Recordkeeping, requires
DCRB to “keep timely and accurate records of all matters within the scope of its
responsibilities covered by this Memorandum and the First Amended MOU, and shall
retain and preserve all records transferred to the Retirement Board by the District until
such time that the final reconciliation is complete and disposal of the records are
otherwise consistent with applicable records disposition schedules. Such records include,
records of benefit determinations and records and other information relied upon in
making such determinations, the amount and timing of Federal Benefit Payments and
District Benefit Payments, the amount of each Refund, Lump Sum Payment or Prior
Service Deposit, the manner in which it was calculated, the name of the individual
receiving the Refund, Lump Sum Payment or making the Prior Service Deposit, the dates
of service with respect to which such Refund, Lump Sum Payment or Prior Service
Deposit is made and the employer for whom the service associated with a Prior Service
Deposit was performed, and the date on which each Refund or Lump Sum Payment was
paid.”

OMB Circular No. A-123, Management’s Responsibility for Internal Control, in the
introduction section notes the requirements of the Federal Managers’ Financial Integrity
Act (FMFIA) of 1982: “The agency head must establish controls that reasonably ensure
that …iii. Revenues and expenditures applicable to agency operations are properly
recorded and accounted for to permit the preparation of accounts and reliable financial
and statistical reports and to maintain accountability over the assets.”

In addition, U.S. Government Accountability Office’s (GAO) Standards for Internal
Control in the Federal Government (GAO/AIMD-00-21.3.1) (the Standards) states:
“Control activities occur at all levels and functions of the entity. They include a wide
range of diverse activities such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records which provide evidence of execution of these activities as well as
appropriate documentation. Control activities may be applied in a computerized
information system environment or through manual processes.”




                                            A-2
                                                              Appendix A, continued




Recommendations

We recommend that the ODCP: (1) Work with DCRB to ensure they are in compliance
with the Recordkeeping requirement as specified in MOU Concerning Interim Benefit
Administration of Retirement Programs dated September 26, 2005, section 4.5; and
(2) Take appropriate steps to inform DCRB management of the importance of the
preservation, maintenance, and monitoring of annuitant files at DCRB by requesting
DCRB to implement a file tracking system to include the person with custody of
annuitant files, secondary review, file scanning and quality review processes.

Management’s Response

1. ODCP will conduct training with applicable DCRB staff on recordkeeping
   requirements.

2. ODCP will propose to DCRB the idea of implementing a file tracking system to
   include the person with custody of annuitant files, secondary review, file scanning
   and quality review processes.




                                         A-3
